0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. _ _
IN RE WISCONSIN LEGISLATURE,

Petitioner,

As required by Supreme Court Rule 33. l(h), I
certify that the Petition for Writ of Mandamus and
Petition for Writ of Prohibition contains 8,844 words,
excluding the parts of the Petition that are exempted
by Supreme Court Rule 33.l(d).
I declare under penalty of perJury that the
foregoing is true and correct.
Executed on September 24, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED
(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
. Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E

, Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

Notary Public
[seal]

1

